<html>
<title> - S. _, THE WILDFIRE PREVENTION AND MITIGATION ACT OF 2017</title>
<body><pre>[Senate Hearing 115-227]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-227

                     S. _, THE WILDFIRE PREVENTION 
                       AND MITIGATION ACT OF 2017

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-916 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>               
               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 25, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Crapser, Bill, State Forester, Wyoming State Forestry Division...     4
    Prepared statement...........................................     7
    Responses to additional questions from Senator Barrasso......    19
Moretti, Miles, President/CEO, Mule Deer Foundation..............    21
    Prepared statement...........................................    23
    Response to an additional question from Senator Barrasso.....    29
Kruse, Dylan, Policy Director, Sustainable Northwest.............    30
    Prepared statement...........................................    33
    Responses to additional questions from Senator Carper........    40

                              LEGISLATION

The text of S. _, the Wildfire Prevention and Mitigation Act of 
  2017...........................................................   134

 
                     S. _, THE WILDFIRE PREVENTION 
                       AND MITIGATION ACT OF 2017

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Boozman, Whitehouse, 
Merkley, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Now that the markup is completed, I call 
this hearing to order.
    Today we are having a hearing on Wildfire Prevention and 
Mitigation, the Act of 2017. It is a discussion draft. The 
discussion draft we consider today focuses specifically on 
issues that have been referred to this Committee. It combines 
tools for habitat conservation for mule deer, sage grouse, and 
other wildlife, and streamline processes for addressing 
specific areas that need immediate attention.
    The three titles include bipartisan initiatives from six 
different members and represent many months--if not years--of 
work to give land managers the tools that they need to prevent 
catastrophic wildfires.
    It does not include a budget fix for the simple reason the 
budget issues are outside the jurisdiction of this Committee. 
Ultimately, a budget fix should be paired with tools to reduce 
forest density for improved wildlife habitat and healthier 
forests, and the ability to react quickly to mitigate 
environmental harms after a fire.
    On September 27 this Committee held its first hearing on 
the catastrophic damage caused by wildfires across the country. 
We heard testimony of homes burned, children unable to attend 
schools because of poor air quality, damaged city water 
supplies, and historic forest destruction.
    Since that hearing, fires have continued to burn in 
California and across the West, with devastating effect. 
According to the latest numbers from the USDEA, ``Year to year, 
there have been 52,277 fires, covering 8.82 million acres 
across all jurisdictions, 2.3 million of which are on national 
forests.'' To put this into perspective, that is nearly 7 times 
the State of Delaware, 12 times the State of Rhode Island.
    The cost of these fires is real: lives are lost and family 
history and livelihoods are destroyed in an instant. The 
communities and ecosystems will be needing rebuilding for 
years. We must ask ourselves what kind of future are we leaving 
for the next generation when we fail to conserve Federal 
forests that overwhelm the sky with thick smoke and ash when 
they burn.
    As a physician, I see many parallels between human health 
and forest health. These catastrophic fires are a symptom, not 
the underlying problem. I believe we have to take a holistic 
approach. On the one hand, we must take preventive action so 
that, when fires occur, they don't burn so hot, so long, and so 
fast and destroy everything in their path. Additionally, we 
must also enable restoration to ensure that, when fires do 
occur, agencies have the tools they need to restore and improve 
wildlife habitat, access for recreation and whole forest 
ecosystems. Both of these things must be paired with a 
comprehensive budget fix.
    Before hearing from our witnesses today, I would like to 
turn to Ranking Member Carper for his remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    To our witnesses, I had a chance to welcome you all 
personally, but in public I want to say, welcome. We are glad 
you are here.
    Since the last time we met to discuss wildfires, just about 
a month ago right here, 21 major wildfires have ravaged the 
State of California. These fires have destroyed over 8,000 
homes and buildings, scorched more than 245,000 acres, and 
tragically taken some 42 lives. More than 11,000 firefighters 
from I think about 18 States and Australia are still working to 
contain these fires.
    My wife and I were out in California about a week and a 
half ago, and from San Francisco down to San Jose we were 
struck by the haze, the smoke that was still in the air, 
especially in the northern part of the Bay area. A lot of 
people were wearing masks almost 100 miles from where the fires 
were taking place.
    Challenging fire conditions persist throughout California, 
but now that the October fires are waning, cleanup begins. 
Chemicals present in burned out homes and buildings may cause 
new health and human safety concerns. We need to act to address 
wildlife risk now more than ever. We also need to be thoughtful 
and strategic as we do that.
    During our September hearing our colleagues and witnesses 
seemed to agree on several issues, ranging from the urgent need 
for Federal funds to address fire to the possibility that 
narrowly tailored policy solutions should also be considered.
    Unfortunately, that bipartisan consensus is not well 
reflected in the draft legislation that we are considering 
today. The Wildfire Prevention and Mitigation Act does 
incorporate two bipartisan bills, but it also includes broad 
changes to the National Environmental Policy Act. I am 
concerned about the negative implications of these proposed 
reforms which would be layered on top of existing underutilized 
forest management authorities.
    This management reform-only approach is not going to solve 
our nation's wildfire problem. The draft bill does not 
acknowledge or address root causes for increasingly severe 
wildfire seasons, such as climate change or increased 
development near forestlands. It also fails to provide adequate 
funding resources to the Forest Service.
    I have mentioned the Forest Service's funding challenges 
before, but the facts are worth reiterating. In 1995 only 16 
percent--16 percent of the Fire Service's budget was dedicated 
to fire suppression. Since 2015 the Forest Service has been 
spending more than half of its annual budget fighting fires. 
More than half.
    In order to meet fire suppression needs, the Forest Service 
borrows money from other important programs, including those 
focused on forest management and restoration. This practice, 
known as fire borrowing, is not sustainable. We have to get 
ahead of this problem. It is not getting better; it is getting 
worse, and it prevents the agency from taking necessary action 
to prevent fire.
    According to Secretary Perdue, firefighting activities will 
likely consume two-thirds--two-thirds of the Forest Service 
budget by 2021. Two-thirds by 2021. When Secretary Perdue 
announced these projections at a bipartisan press event last 
month with our Senate colleagues, he asked Congress to focus on 
a permanent funding fix. He also reported that the Forest 
Service is cooperating well with local communities and does not 
necessarily need legislative management reforms.
    I look forward to hearing from our witnesses. We look 
forward to hearing from each of you this morning who have 
traveled, in some cases long ways, to share your expertise, 
your counsel with us today.
    Mr. Chairman, I do hope we will also be able to refocus our 
efforts and develop a truly bipartisan approach to better 
prevent and address wildfires across our nation. Thank you so 
much.
    Senator Barrasso. Thank you very much, Senator Carper.
    We have today with us three individuals who will be 
testifying. We will hear from our witnesses. Today we have Mr. 
Bill Crapser, who is the State Forester for the State of 
Wyoming; Mr. Miles Moretti, who is the President and CEO of the 
Mule Deer Foundation; and Mr. Dylan Kruse, who is the Policy 
Director for Sustainable Northwest.
    I want to first introduce Mr. Crapser, who serves as 
Wyoming's State Forester and recently served as the President 
of the National Association of State Foresters.
    I am very pleased, Bill, that you join us today. You have 
served as the Wyoming State Forester since 2003. As part of 
your leadership of the Wyoming State Forestry Division, you 
know that collaborative work across the many private, State, 
and Federal boundaries is the key to healthy forests across 
Wyoming.
    As a key member of Governor Mead's Task Force on Forests, 
Bill helped to develop a series of recommendations to reduce 
the threat of destructive wildfire through vegetation 
management, to enhance forest health and wildlife habitat 
across migration corridors, and to expand outdoor recreation 
opportunities in healthy forests.
    Bill provides critical expertise and is a valuable resource 
when addressing challenging issues like those we will discuss 
today.
    So I appreciate you making the trip, Bill, to be with us. 
And before asking you to testify, I would like to recognize 
Senator Merkley to introduce his constituent who is here as 
well.
    Senator Merkley. Thank you, Mr. Chairman. It is a pleasure 
to be able to welcome Dylan Kruse, who has made the trip from 
Oregon to testify. He serves as the Policy Director for 
Sustainable Northwest, an organization focused on resolving 
conflict by developing solutions that improve community and 
economic well being, while preserving healthy forests.
    Mr. Kruse also serves as a member of the Real Voices for 
Conservation Coalition, where he works with people across the 
western United States in a collaborative manner to develop 
solutions to challenges facing our public lands and our natural 
resources.
    I know that Mr. Kruse has been a great resource for my 
staff. His work on natural resources and public land issues 
will provide insight to this Committee as we discuss the 
Wildfire Prevention and Mitigation Act.
    Thank you, Mr. Kruse, for making the trip out here and for 
your work to bring people together from across a broad array of 
perspectives.
    Senator Barrasso. Thank you very much, Senator Merkley.
    I also note that Mr. Moretti, who is here, you were born in 
Evanston, Wyoming, I understand, and grew up in the Bridger 
Valley. So we welcome you as well.
    With that, I would like to remind the witnesses that your 
full written testimony will be made part of the official 
hearing record, so please try to keep your statements to 5 
minutes so we may have time for questions.
    Mr. Crapser, please begin.

          STATEMENT OF BILL CRAPSER, STATE FORESTER, 
                WYOMING STATE FORESTRY DIVISION

    Mr. Crapser. Thank you, Chairman Barrasso, Ranking Member 
Carper, members of the Committee. My name is Bill Crapser. I 
serve as the Wyoming State Forester. I am also the immediate 
past President of the National Association of State Foresters.
    Through the 2008 Farm Bill, State foresters were tasked 
with developing State forest assessments and action plans for 
all ownerships, including Federal. In 2013, our Governor, 
Governor Mead, commissioned the Task Force on Forests. This was 
a diverse group of Wyomingites who worked collaboratively for 
over a year to create a vision for our forests. The Task 
Force's No. 1 recommendation was to endorse and implement the 
strategies and direction laid out by our State Forest Action 
Plan.
    In Wyoming, our State Forest Action Plan identifies the 
areas of greatest risk for catastrophic wildfire, as well as 
insects and disease. Much of these at risk forest areas are on 
Federal land managed by the USDEA Forest Service. For a variety 
of reasons, the Forest Service has not treated the majority of 
at risk forested areas as identified in our plan. Much of the 
challenge for Federal managers is due to overly burdensome 
environmental regulations that are, in many cases, doing more 
harm than good to Wyoming's forests. Frankly, we are quite 
frustrated.
    It is not just Federal lands that are impacted by this lack 
of active management. Wildfires and insects and disease know no 
boundaries, and virtually all catastrophic wildfires in Wyoming 
burn through multiple ownerships.
    The Wildfire Prevention and Mitigation Act of 2017 
addresses many of the regulatory challenges our Federal 
partners face. Arbitration to resolve disputes would be 
helpful. The use of categorical exclusions for forests at risk, 
or wildfire and forest needing habitat improvement would also 
be helpful. The ability to use CEs, or categorical exclusions, 
for making decisions on salvaging burned and beetle killed 
timber so that the wood will still have value when sold would 
be most helpful. Expansion of the Good Neighbor Authority that 
has been a huge success so far would really be helpful. There 
is increasing opportunity through this Authority for States to 
implement federally approved projects, NEPA completed, with 
State personnel. We applaud the bill's sponsors for this 
thoughtful piece of legislation.
    NASF has a policy platform with specific and detailed 
Federal forest reform--a copy is attached to my written 
testimony--as well as a Forest Resource Committee and Fire 
Management Committee comprised of State foresters from around 
the nation, and could offer assistance to these important 
issues. We believe we can help the Committee in fine tuning the 
details of this bill. In addition, we would ask that the 
Committee consider language which would encourage Federal 
managers to consult their State Forest Action Plans and work 
closely with State foresters to ensure Federal resources are 
focused on the highest priorities.
    While regulatory reform is a significant part of today's 
challenge in addressing our overgrown and insect and disease 
prone forests, there are other factors that would help as well. 
We need a solution to the way Federal wildfire suppression is 
funded. This fire season has been one of the most devastating 
in history. The Forest Service's budget for fire suppression 
has grown from less than 20 percent to more than 50 percent of 
the agency's total budget. This will have repercussions not 
only on Federal land, but for the funding of State and private 
forestry programs across the country. These programs include 
State Fire Assistance and Volunteer Fire Assistance, which fund 
much of the nation's initial attack on Federal lands.
    In Wyoming and across the nation, a private forest 
landowner who works with our staff and with the forest 
stewardship program is almost three times as likely to manage 
his forest as a landowner without a management plan. Helped by 
State Fire Assistance and Volunteer Fire Assistance, every 
county in Wyoming now has a Community Wildfire Protection plan. 
Also, much of our wildland fire equipment and training which we 
use to respond to both private and Federal fires comes from 
this program. In addition, through the support of community 
forestry programs, half of Wyoming's communities are designated 
as ``Tree City USAs.'' This has a huge impact on the quality of 
life, stormwater control, air quality, and carbon capture in 
these communities.
    Again, we applaud the Chairman and the Environment and 
Public Works Committee for making the health of our Federal 
forests a top priority. I know the nation's State foresters 
stand ready to work with you to address these most important 
challenges.
    Thank you.
    [The prepared statement of Mr. Crapser follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Mr. Crapser.
    Mr. Moretti.

          STATEMENT OF MILES MORETTI, PRESIDENT/CEO, 
                      MULE DEER FOUNDATION

    Mr. Moretti. Thank you, Chairman Barrasso and Ranking 
Member Carper and members of the Committee. My name is Miles 
Moretti. I am the President and CEO of the Mule Deer 
Foundation. We are the premier wildlife conservation group 
working on mule deer, black-tailed deer, and their habitat. I 
also am a proud professional member of the Boone and Crockett 
Club, and have served as a past Chair and current Board Member 
of the Intermountain West Joint Venture.
    I appreciate the opportunity to testify today in support of 
the draft Wildfire Prevention and Mitigation Act of 2017. The 
draft legislation is an important step toward the enactment of 
bipartisan solutions to address a national forest health crisis 
which addresses the threat of catastrophic wildland fires in a 
manner that yields significant benefits for wildlife 
populations and their habitat.
    In particular, the Foundation appreciates the inclusion of 
the Sage Grouse and Mule Deer Habitat Conservation and 
Restoration Bill, which was coauthored by the senior Senator 
from the State of Utah--Senator Hatch--and Senator Heinrich, in 
cooperation with sportsmen's conservation organizations, the 
private sector, and other stakeholders.
    And I would like to say that when we put this bill together 
with Senator Hatch and Senator Heinrich, and we had groups like 
Boone and Crockett, National Wildlife Federation, and the 
American Petroleum Institute all give quotes in a press 
release, I had people call me and say, I don't know what is in 
your bill, but if you can get all those people to help sponsor 
this bill and support this bill, I am for it.
    So, with that, in order to achieve our mission, the 
Foundation works with a diverse cross-section of Federal and 
State government partners, nonprofit conservation 
organizations, and the private sector, particularly the oil and 
gas industry, to undertake projects to create, restore, and 
protect sage habitat.
    While the motivation for engaging in these projects may 
differ across these partnerships, the model of working together 
to achieve our shared goal of reversing declining trends in the 
populations of sage dependent species has proven successful 
time and again.
    A primary impediment to replicating the successful 
collaborative model is the onerous and unnecessary and 
duplicative requirements of a full National Environmental 
Policy Act review of projects that would be better allowed to 
proceed under a categorical exclusion.
    While we have moved forward on many projects in the West, 
we have three projects that are being held up by the lack of 
NEPA being conducted by BLM. In my experience, time delays 
resulting from current NEPA requirements stem not only from a 
lack of human and financial resources, but from the fact that a 
full NEPA review, when applied to projects for which NEPA was 
intended to apply, are inherently time consuming. We are not 
asking to pass this bill to circumvent the process, but to 
expedite the process on projects using proven practices that we 
know will have net conservation benefits.
    My ask of you today is that you help us restore our forests 
and rangelands to a healthy condition by giving us the tools 
and flexibility to accomplish that tool, and we believe that 
whatever form that takes, we need action now. There is just so 
many wildfires in the West, and they are becoming such 
catastrophic events that we need to get proactive. The hands 
off approach has not worked. We need a hands on approach to 
working with our partners in restoring healthy forests and 
rangelands.
    Thank you for your time and allowing me to testify before 
you today. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Moretti follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your testimony, 
Mr. Moretti.
    Mr. Kruse.

    STATEMENT OF DYLAN KRUSE, POLICY DIRECTOR, SUSTAINABLE 
                           NORTHWEST

    Mr. Kruse. Chairman Barrasso, Ranking Member Carper, 
members of the Committee, thank you for the opportunity to 
testify. My name is Dylan Kruse, and I am the Policy Director 
at Sustainable Northwest. We are a regional nonprofit located 
in Portland, Oregon, developing solutions to natural resource 
challenges that maintain working lands and promote 
environmental stewardship. I appreciate the chance to speak 
with you all today, as the subject matter could not be more 
urgent.
    Sustainable Northwest is a strong supporter of active 
forest management that sustains ecosystem resiliency, supports 
natural resource livelihoods, and protects life and property. 
Unfortunately, the Wildfire Prevention and Mitigation Act will 
do little to address the underlying challenges affecting the 
health of our Federal forests, and omits critical opportunities 
to address the rising costs and threats of wildfire.
    We are troubled by proposals that shortcut environmental 
laws, create bureaucracy, and introduce unnecessary authorities 
likely to cause increased tension in land management planning 
and decisionmaking.
    Regarding Title I of the bill, we recognize the need for a 
legislative fix to conflicting court decisions about 
consultation with the Fish and Wildlife Service. We commend the 
Committee for swift resolution on this matter, but urge you to 
work with interested parties to improve the legislation based 
on two principles: that forest restoration projects should be 
permitted to proceed in a timely fashion, and that we should 
not diminish the integrity of the Endangered Species Act.
    We are particularly troubled by Title III of the bill. 
Section 311, on Environmental Assessments. Discretion and 
timely decisionmaking are imperative in the production of any 
environmental review, and we expect agencies to exercise 
prudence to satisfy sufficiency. However, the Forest Service 
should retain independent decisionmaking authority that relies 
on its technical and scientific expertise when selecting the 
appropriate criteria and level of detail to be incorporated 
into analysis.
    In Section 314, on an Alternative Dispute Process, 
introducing a binding arbitration process with agencies and 
restricting the ability of the public to file legal challenges 
undermines essential tenets of our democratic process. We 
appreciate the intent to reduce litigation and expedite legal 
resolution, but have not seen evidence proving that arbitration 
will result in a different outcome than judicial review. It 
also prohibits case law for future precedent and is vague on 
expectations and qualifications for arbitrators.
    And Section 332 to 336 on Categorical Exclusions, we agree 
that there is a pressing need to increase the pace and scale of 
restoration, but the Forest Service already has at least 25 
internal categorical exclusions, as well as 5 additional 
authorities in statute. CEs and streamlined options already 
exist for insect and disease treatments, hazardous fuels 
reduction, protection of water sources, and salvage logging. 
This is not to say that review of NEPA is not warranted.
    We are pleased to note that the Forest Service experts are 
already reviewing environmental authorities and opportunities 
for efficiency. We urge the Committee to let the agency 
complete this process and propose new approaches based on data 
driven analysis.
    So, as far as alternatives for success, in contrast to the 
broad reforms in the proposed legislation, we suggest a more 
targeted approach that addresses the causes of extreme 
wildfire, reforms budgets, and utilizes existing authorities.
    First of all, we must fix fire funding. Unlike other 
natural disasters, the Forest Service and Department of 
Interior are required to pay for wildfire response out of their 
annual budgets and transfer funds when they exceed their 
allocation. More than 50 percent of the Forest Service budget 
is consumed by wildfire suppression. By 2021 it will be 67 
percent. We must address this now.
    We need to seek a comprehensive solution. Alternative 
bipartisan proposals such as the Wildland Fires Act of 2017 
more effectively address the causes of wildfire and provide 
resources to prepare for and prevent future wildfires. This 
includes funding to at risk communities, investment in forest 
products infrastructure and work force, and incentives for cost 
savings to complete restoration.
    We need to use the tools we already have. The 2014 Farm 
Bill authorized stewardship contracting, Good Neighbor 
Authority, insect and disease designations, and designation by 
prescription and description in timber sales. These tools have 
been embraced by partners, as you have heard, but have just 
recently been adopted.
    We need to support collaboration. Oregon and Washington are 
home to 33 forest collaboratives. A recent academic review of 
the Collaborative Forest Landscape Restoration Program showed 
that 75 percent of respondents said the program resulted in 
decreased conflict, and 61 percent had seen decreased 
litigation. Federal agencies should adopt collaborative 
recommendations to the maximum extent possible.
    We need to get ahead of the problem. We continue to take a 
reactive approach to wildfire, instead of proactively 
addressing its causes. In Oregon and Washington alone, there 
are over 2 million acres of forests that have already completed 
NEPA but have yet to be carried out due to funding. These 
projects will reduce fuel loads, improve forest health, and 
allow fire to return in a controlled and beneficial way. But 
Congress must be willing to pay for them.
    And thus we must invest accordingly. Landscape restoration 
will only be implemented with appropriate investment from 
Congress. This includes funding for collaborative initiatives 
and programs that cut across ownership boundaries, leverage 
resources, and achieve integrated outcomes. However, funding 
levels in President Trump's fiscal year 2018 budget propose a 
dire and austere vision for our Federal lands and rural 
communities. Instead, we should sustain land management agency 
funding levels as included in the fiscal year 2017 
appropriations bill.
    In closing, with these conditions in place, significant 
gains could be made to improve the health of our landscapes, 
create natural resource jobs, and secure the safety of rural 
and urban communities.
    Thank you.
    [The prepared statement of Mr. Kruse follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Kruse.
    I thank all of you for your testimony. We will now turn to 
some questions.
    Mr. Crapser, how would this legislation before us today 
lead to increased programmatic efficiency and effectiveness in 
what you do?
    Mr. Crapser. Mr. Chairman, I think any tools in the Forest 
Service's toolbox potentially help with their efficiency. If 
you look at the CE language, there has been some hesitancy on 
the agency's part to utilize some of the CEs under the current 
Farm Bill. I think the big thing that it does, it gives them 
more tools, it gives them more options when they look at any 
management concerns.
    Senator Barrasso. When we talk about tools, the Good 
Neighbor Authority can be an important tool that allows the 
Forest Service to work with States so they can perform 
watershed restoration, forest management services. Congress 
enacted two different Good Neighbor Authorities under the 
Department of Interior a couple of years ago. Do you see 
benefits in a single national Good Neighbor Authority as 
provided by this Wildfire Prevention and Mitigation Act?
    Mr. Crapser. Mr. Chairman, yes, I do. I think any time we 
have conflicting authorities, even though they are relatively 
the same, it causes confusion. As I understand it, the current 
Authorities, one that was in the Appropriations Bill, will 
actually expire a year from now. I believe the other one is 
long term, the one that was in the Farm Bill. There are some 
issues with road construction and road reconstruction in the 
two. Having one that is consistent would be helpful for both 
States and for the Federal agencies.
    Senator Barrasso. Mr. Moretti, kind of a two part question 
about NEPA. Do you believe that the existing NEPA structure is 
sufficiently effective and flexible in terms of promoting 
effective forest management? And then the second part is why do 
you think it is necessary to have categorical exclusions, which 
we outline in this Wildfire Prevention and Mitigation Act of 
2017, to help expedite the forest management projects?
    Mr. Moretti. Well, overall, the NEPA process as the law is 
good, but it has been interpreted so many different ways, and 
it is holding up our projects and has become so cumbersome. And 
what we are also finding is the agencies no longer have the 
budget and the manpower to deal with NEPA on these projects 
that we are working on that are projects that are probably 
going back into an area that had NEPA done on them over 20 
years ago, 30 years ago.
    We are doing maintenance in a lot of these areas. We are 
trying to reduce this invasion of pinyon-juniper that is coming 
in and invading sage habitat and mule deer habitat. So we 
believe that the categorical exclusions can help us expedite 
this process, get this going as you see what is going on in the 
West, whether it is on BLM land. People forget that over 2 
million acres of sage grouse habitat burned up this year, and a 
lot of that was pinyon-juniper country that just burned into 
the sage habitat. So it is more that we need expedited, to have 
the flexibility to get out there and get these projects done.
    Senator Barrasso. It seems that environmental laws and 
regulations affecting forest management projects do play an 
important role in protecting wildlife and habitat, but projects 
are often halted; not over compliance issues, but by litigation 
and appeals of the litigation. This Wildfire Prevention and 
Mitigation Act would establish a pilot arbitration process to 
conduct alternative dispute resolutions over forest management 
activities.
    Do you see value in this legislation's arbitration 
provision in terms of solving some of the disputes that 
basically have an impact on the work that is trying to be done?
    Mr. Moretti. Well, I think anything that brings the parties 
to the table to work it out, and hopefully they would be able 
to work it out before there is a decision, so there isn't a 
winner and a loser. But believing that getting people face to 
face around a table and working things out, and finding those 
touchpoints that are causing the conflict. I think when 
reasonable people get together, they can make reasonable 
decisions.
    Senator Barrasso. And Mr. Crapser, the Wildfire Prevention 
Act makes several references to collaboration. Can you provide 
the Committee with maybe a couple of examples of collaboration 
in our State that have benefited Wyoming's natural resources? 
And as a State forester, how do you think of the term 
collaboration?
    Mr. Crapser. Mr. Chairman, I think we have had some great 
successes on both recreation collaboratives and on forest 
management vegetative collaboratives across the State, in the 
Big Horns. In the western part of the State, on the Bridger-
Teton we have an active collaborative working right now that I 
think will come up with some good solutions, some community 
based solutions.
    I think collaboration, like a lot of buzz words, we love to 
throw the term collaboration around and collaboratives around, 
and I think a lot of times it requires us to just old fashion 
work together and roll up our sleeves and talk to one another 
to see what is the best for our forests.
    Senator Barrasso. Thank you.
    Thank you all.
    Senator Carper.
    Senator Carper. Let me just ask my Democratic colleagues, 
anybody on a tight timeline? If so, I will yield to you. 
Anybody? I see none. OK, good. In that case, I will take 15 
minutes. Not really. All right, here we go.
    My colleagues know one of the things I always search for 
when we have a hearing on an issue about which there is not 
unanimity is that I like to use a panel like you to help us 
find the common ground where it is missing.
    Let me just ask this multi-part question, but first, ask 
each of you to briefly mention three things we talked about 
here today where you think there is agreement among the three 
of you. Three things. Important points.
    Mr. Crapser.
    Mr. Crapser. Listening to my colleagues on the panel, I 
would think we would be in agreement that collaboration and 
folks working together is a good thing; you can make better 
decisions. I think utilizing the Good Neighbor Authority and 
the Federal agencies working closer with the State, with the 
State Forest Action Plans, with the State Wildlife Plans, I 
think we would probably all be in agreement that that is a 
positive thing. And I think at the end of the day the other 
thing we all would find in agreement, we probably all want what 
is best for the forests, for the wildlife, and for the folks 
that recreate and live around our forests.
    Senator Carper. All right. Thank you.
    How do you pronounce your name, Miles?
    Mr. Moretti. Moretti.
    Senator Carper. Moretti. Thank you so much. Mr. Moretti.
    Mr. Moretti. Ranking Member Carper, I appreciate that 
question because I think we all agree that what we have done in 
the past has not worked, and that we are facing some extreme 
conditions that we have never faced before, and we need to be 
proactive and we need to be aggressive, and that is everything 
in funding, fixing those administrative barriers to getting the 
job done. And I think as my friend from Wyoming says, I think 
we can all agree that--bottom line--we want to see a healthy 
forest and healthy rangelands.
    We may disagree on how we get there, but I think our end 
goals are all the same.
    Senator Carper. All right. Thanks.
    Mr. Kruse. Senator Carper, I definitely agree with my 
colleagues on the panel. We certainly want to see active 
management for improved forest, watershed, and community 
conditions. I think we all agree on the need for a 
comprehensive wildfire funding fix; I think we all see a clear 
and defined role for collaboration to help get us to those 
outcomes; and I think we all agree on the need to invest in our 
Federal land management agencies to get the work done.
    Senator Carper. That is quite a bit of agreement.
    Let me just ask you a follow up question. Where is the most 
significant disagreement, the most significant disagreement 
that we face, from your perspective, and how would you 
recommend that we address that disagreement to reach our 
differences?
    Very briefly, Mr. Crapser.
    Mr. Crapser. Senator, I think the devil being in the 
details, as the old saying goes, is probably----
    Senator Carper. I have never heard that before.
    Mr. Crapser [continuing]. Where most of the disagreement 
would come. I think on how we get there, I think there is, for 
whatever reason, lack of trust between different communities 
involved in natural resources on trusting that other parts of 
the community are really out for the same thing that they are 
and are trying to do the right thing. So I think the biggest 
area of disagreement is understanding or misunderstanding of 
the trail we want to follow to get to where we need to go.
    That is kind of--I didn't really answer your question, I 
feel, but that is, I think, the biggest issue we face.
    Senator Carper. OK. And again, there is a second part to 
the question. That is the biggest. How do we bridge that.
    But go ahead, Mr. Moretti. What I am really interested in 
is how do we go about bridging the major difference that you 
see. The 800 pound gorilla in the room, if you will; how do we 
bridge that?
    Mr. Moretti. Well, I have always found that the way you 
bridge and get together with disagreements is you sit around 
the table and look each other in the eye. And everybody is 
going to come to the table with their agenda, and I think that 
the trust has to be there, and if you don't have the trust that 
people are there trying to do the right thing, and everybody 
thinks that you have some hidden agenda, I think if we can put 
that on the table and sit down and hammer it out, again I go 
back to reasonable people can come up with a reasonable 
solution, and we need that out there.
    I mean, we are literally dying out there. Our forests are 
dying; we are having catastrophic fires that are taking human 
toll, and we need help. So we have to get serious people to the 
table to figure out how to fix this.
    Senator Carper. Good.
    Same question, Mr. Kruse.
    Mr. Kruse. Senator Carper, trust is certainly the operative 
word there. I think for certain members of the natural 
resources community this distrust is fostered by the notion 
that we are changing the rules of the game, when we begin to 
look at certain reforms especially to bedrock environmental 
policy like NEPA. Our recommendation as far as overcoming that 
distrust is, again, to focus on all of the authorities that we 
have.
    What can we do with stewardship contracting? What can we do 
with Good Neighbor Authority? What can we do with our 
categorical exclusions, with the Healthy Forest Restoration 
Act? We already have lots of tools to do action, no action, 
alternatives, to expedite judicial review, and those have been 
passed by Congress in a bipartisan fashion. This is a question 
of leadership, and it is a question of investment and funding.
    And if we are creating the conditions for success, and we 
have already enabled a playing field where we can succeed, it 
is about direction from this Congress to those agencies and to 
the general public about what we are trying to accomplish. But 
we certainly have the tools and the resources available to us 
as far as the mechanisms to meet the rule of the law, to meet 
environmental stewardship and get work done, but we have to 
invest in it, and we have to foster that bipartisan spirit, 
rather than change and move the goal posts.
    Senator Carper. Excellent. Thank you so much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here. I think Senator Carper's question about what we 
can agree on was really very, very good, and that is what we 
try and do, and those are the things that we ought to be able 
to get done. I think everybody in this room, listening to you 
all, listening to your testimony, agrees that we can't continue 
to spend 50 percent of the dollars that we spend on fire 
suppression. It just makes no sense at all.
    So I would like for you to talk, whoever wants to jump out, 
and then we will go down the panel, tell me about when you are 
spending that many dollars on that and you don't have any money 
to really do the job on managing things, tell me the impact of 
that. Tell me why that is such a huge problem.
    Mr. Moretti. Well, Senator, I can tell you from our 
standpoint what happens a lot of times, we are out on the 
forests, around the BLM, we are doing projects, doing active 
management, and a lot of times we will get shut down come the 
fire season because everybody is gone, and then they are having 
to pull their budget back.
    So, you know, projects that we have, we have contractors on 
the ground, and we are ready to go, and we just can't move 
forward; we have to shut down, and then we may not get started 
until the next year; it may be delayed. So those are the kinds 
of things that affect us, and the agency gets shut down, and 
basically they do nothing but fight fires during that fire 
season, and there needs to be a better way of conducting 
business.
    Senator Boozman. And in not managing the ecosystem, doing 
the management because of what you describe, you are pulling 
this off all over the country; what is the effect of that?
    Mr. Moretti. Well, we don't get the projects done that can 
help alleviate the problem we are talking about. So with some 
active management and being proactive in these areas, we can go 
in and we can make sure that the forest is in a good, healthy 
condition. We have actually had projects in Arizona where some 
large wildfires have happened, and when they have gotten to one 
of these projects that we have done, mostly for wildlife, the 
fire has slowed down; it has not gone out, but it has slowed 
down. And a lot of times these projects that we are doing serve 
as kind of a fire break and are really helpful.
    Senator Boozman. Mr. Kruse, before you do, it is sad, we 
have heard testimony here about people in fire prone areas, 
people who have had devastating fires and talking about the 
managed areas, many of them private areas that are managed 
well, and then you have the areas that we are managing, and 
they are raging infernos compared to the other and really part 
of the problem.
    Mr. Kruse.
    Mr. Kruse. Senator Boozman, I agree with Mr. Moretti, 
certainly. The challenge associated with the funding budget 
situation is that we are unable to do the work on the ground 
because it is consumed by fire funding. The Forest Service has 
become the Fire Service. And a comprehensive wildfire funding 
fix includes access to disaster funding; it minimizes the need 
to do those transfers, so the agency doesn't halt its work 
during fire season, and it freezes or minimizes the 
cannibalization of the agency's budget because of the rising 
cost of the 10 year average. The result of that is potentially 
hundreds of millions of additional dollars that are freed up to 
do this management work on the ground; to do that thinning, to 
do that fuels reduction, to do those prescribed burns to 
protect communities.
    I mentioned 2 million acres of forestland in Oregon and 
Washington that have already been approved for NEPA to go 
through that management process. With money we could save from 
a fire funding fix, we could get that work done.
    Senator Boozman. Very good.
    Yes, sir.
    Mr. Crapser. Senator, kind of as my colleagues have already 
talked about, it is almost a self-fulfilling prophecy that we 
are in right now. We have high fuel loadings, poor forest 
conditions, large fires. The Fire Service uses all their money 
to fight fires, so they don't do their hazardous fuels work, 
and we just keep going down the road. It impacts the Forest 
Service's ability to do Federal land management.
    It also impacts, where we are at with wildland fires now, 
the State's ability to help private landowners. As you know, 
large parts of State Forestry's budgets come from the Forest 
Service for State and private projects. Those funds are 
somewhat up for grabs during fire borrowing. Also, our folks 
are helping the Forest Service on fires, so we have the same 
issues during the summer. So it ends up being a self-fulfilling 
prophecy again, just that we keep moving into a worse and worse 
situation.
    Senator Boozman. Good. Thank you. And we do appreciate all 
of your all's hard work very much.
    Senator Barrasso. Thank you, Senator Boozman.
    The order I have based on arrival of the Democratic members 
is Senator Merkley next, then Senator Harris, and then Senator 
Whitehouse, if that is agreeable to you in the order in which 
you have arrived.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    I appreciate your testimony.
    Mr. Moretti, I believe you were speaking to the fact that 
when thinning and hazardous fuels are reduced, the forest can 
become much more naturally resistant to fires. Did I understand 
that correctly?
    Mr. Moretti. Yes.
    Senator Merkley. And Mr. Crapser, would you agree with 
that?
    Mr. Crapser. Yes, Senator, I think I would.
    Senator Merkley. And Mr. Kruse?
    Mr. Kruse. Yes, Senator.
    Senator Merkley. So I was very struck. I was visiting 
eastern Oregon this last weekend, and central Oregon, and I 
went up to a forest outside of Sisters, where the fires had 
raged, and they were coming toward the town, and they stopped. 
And why did they stop? Well, because this forest had been 
thinned, it had had its hazardous fuels removed, some many 
years ago, and it had a 15 year or so prescription burn done 
that had reduced the grass and brush that had grown up over 
those years. And it really helped the Forest Service get in and 
fight the fire, also, because it was much easier to move about 
in this forest that had been thinned.
    So it seems like we have several things that I think 
everyone agrees with, and I will just say them out loud. We 
need to fix fire funding so that we are not continuously 
draining all the other programs in the Forest Service; that 
thinning and hazardous fuels reduction has a positive outcome 
both for forests as timber stands, as healthier ecosystems that 
supply saw logs to the mill, and it makes the forest more 
resistant.
    Are there any of those points that any of you would 
disagree with?
    [All witnesses shook their head in the negative.]
    Senator Merkley. So we have, just in Oregon and Washington, 
as you pointed out, Mr. Kruse, 2 million acres. I know we have 
1.6 million acres in Oregon, so I guess a smaller number in 
Washington State, that have already gone through the 
environmental process. The only thing that stops us from 
adopting this strategy which produces saw logs, makes the 
forest healthier, makes it fire resistant is funding. So why 
not concentrate on getting the funding to do these things and 
the fire borrowing, and get the funding to do the work up 
front?
    My concern about some of the proposals is when there is 
that easily available and very effective solution, as soon as 
many of us hear, well, let's authorize no environmental review 
and clear cuts, it is just the timber wars of the past, instead 
of actually a strategy to make the forests healthier, supply 
saw logs. Why go back to the timber wars of the past if we have 
the solution sitting right in front of us?
    Mr. Kruse.
    Mr. Kruse. Senator Merkley, I agree strongly with what you 
are suggesting. I think part of the challenge that we have here 
is a series of categorical exclusions that have expanded beyond 
what the intent of a categorical exclusion should, by 
definition, be, which is having no direct impact, no indirect 
impact, or no cumulative impacts. So we are taking a tool that 
can and appropriately be used in certain situations and being 
expanded to something that it should not be.
    More importantly, as you mentioned, we should be focusing 
on those existing authorities to actually address these 
challenges at a landscape scale. We should be investing in 
programs like the Collaborative Forest Landscape Restoration 
Program. We should be doing programmatic environmental impact 
statements.
    We want to have an impact on the land, as you noted. That 
is not accomplished with the category of exclusion that has no 
impact. We shouldn't be treating 1 or 3 or 6,000 acres at a 
time; we should be treating hundreds of thousands of acres. And 
with adequate funding and authorization of those programs and 
utilization of all of our existing authorities, we can and 
should be able to do that without returning to the rhetoric and 
the conflict of the timber wars.
    Senator Merkley. I do think many of you or maybe all of you 
have spoken to the cycle we are trapped in of we are just 
depleting the funding on the front end to do the hazardous 
fuels and the thinning, and then we are spending it on the back 
end. And breaking that cycle is something I think Democrats, 
Republicans, and everyone on every side of this could agree 
with.
    We have a mill up in John Day, Oregon, that was going to go 
out of business, and I met with the millworkers and said I 
would do everything I could to help keep that mill open. But 
you couldn't do it through a timber sale because that didn't 
give the at least 10 year horizon that the owner needed to be 
able to invest in equipment for the mill.
    So we were able to do it through a stewardship agreement. 
And that meant that the forest was healthier, they got a steady 
supply of saw logs, so they employed more people at the mill. 
In a small town, that is a really big deal.
    And I am out of time, but you are welcome to respond if the 
Chair will allow it. Why not focus on these tools that are 
right before us that everyone on this panel agrees with?
    Mr. Crapser. Senator, I think there is a lot of good tools 
out there that we can already use; however, not all the West, 
not all the Forest Service is as far ahead on NEPA documents as 
I think Washington and Oregon obviously are. One advantage that 
I see in categorical exclusions, or one of the advantages I see 
in categorical exclusion is, first, to clarify, a CE is an 
environmental document, it is part of NEPA, it is covered under 
NEPA. And it takes about 7 months to put together the analysis 
for a CE; it takes about 2 and a half years for an EA or an 
environmental assessment.
    While I think a lot of our tools are very good that we 
have, I think we have had a tendency, because of fire 
borrowing, because of lots of other reasons that you have 
talked to that we do have to address, to not have a sense of 
urgency. On some of the mountain pine beetle areas, some of the 
fire salvage areas, I think in those areas, in particular, 
there is a need of urgency to try to get things done in a 
fairly rapid form.
    Mr. Kruse. Senator Merkley, I don't want to belabor the 
point because I certainly and strongly agree with your 
comments. I do just want to thank you. To the point we have had 
a lot of great successes in Oregon and Washington, and that is 
a testament to the leadership that we have had in our region, 
so thank you for your continued advocacy to identify and pacify 
our funding fix.
    Thank you for your advocacy to fight for surge funding in 
this Congress to get additional investments to help our 
communities recover from the devastating fires we have seen 
this year, including the Chetco Bar and the Eagle Creek fire in 
Oregon. We are reeling from that. We need to help rebuild our 
communities, and we need to get additional investments to start 
to get ahead of the problem. So thank you for your leadership 
on that.
    Senator Merkley. Thank you.
    Senator Barrasso. Thank you very much, Senator Merkley.
    I am going to introduce letters and testimony in support of 
the Wildfire Prevention and Mitigation Act of 2017. There are 
78 testimonies and letters received from a diverse group of 
stakeholders representing conservation and sportsmen's group, 
farmers, ranchers, counties, water and irrigation 
organizations, forestry job creators, all in support for the 
staff draft bill into the record. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Harris.
    Senator Harris. Thank you, Mr. Chairman.
    As has been mentioned and I think is widely known, the 
recent wildfires in my home State have been devastating to 
California. I was there last week. For hundreds of miles 
surrounding the wildfire devastation and disaster, you could 
see and smell the smoke. It has presented health issues to 
surrounding communities that will linger.
    When I went there, I actually flew over in a Black Hawk 
with the Governor and others to survey the scene from the air 
and see the path of the wildfire. I then walked the 
neighborhoods that had been devastated, and I will tell you 
seeing those neighborhoods, all of the houses had been 
destroyed. They were gone. Ash. The only thing standing were 
the chimneys. And I will tell you when I looked at it, what I 
saw, it looked like a graveyard, and the chimneys looked like 
tombstones.
    I met with the residents of those communities in the 
evacuation centers. They are devastated. And the impact, the 
trauma, the emotional, the physical; we lost 42 lives. I met 
firefighters who lost their own homes and were battling the 
fire knowing they had nothing to return to. I met one 
firefighter who was at one of the centers. He was wearing 
sweatshirt and sweatpants that someone loaned him because he 
had been fighting the fires but he had nothing to change into 
because his home had been destroyed.
    So the devastation is very real, and I think this Committee 
understands in a very bipartisan way that we need to address 
the issue, and we need to address the issue, as my colleagues 
have discussed. It includes understanding that, for example, in 
California we have over 245,000 acres that have been destroyed. 
That is about 5 times the size of DC. Eighty-four hundred homes 
and buildings have been destroyed. So it is true devastation.
    So, Mr. Kruse, I have a question for you. After speaking 
with California Fire Chief Ken Pimlott, I have become very 
aware and it has become clear to me that Congress needs to 
reform our outdated budgetary practices, and in particular, 
those that do not treat wildfires like other disasters.
    Do you agree that wildfires are in fact disasters and 
should be treated as such?
    Mr. Kruse. Senator Harris, thank you for the question. 
Wildfires are certainly a natural part of the ecosystem and 
part of our forested landscapes, but unfortunately, because of 
the effects of climate change, longer, hotter, drier fire 
seasons, extensive fuel build up in 100 years of fire 
suppression, we are seeing increasing numbers of these 
wildfires becoming extreme disasters, and they should 
absolutely be categorized as such.
    Senator Harris. Thank you. Currently, more than 50 percent 
of the Forest Service's budget is dedicated to fire 
suppression, leaving little money for forest management, which 
has been the discussion here. Do you believe we have dedicated 
enough Federal funding to the Forest Service to help prevent 
and mitigate the likelihood of a wildfire before it happens?
    Mr. Kruse. Senator Harris, we certainly have not, and we 
have shovel ready projects to invest in both planning and 
implementation right now. We desperately need additional 
investment.
    Senator Harris. My colleagues and I have cosponsored a 
bipartisan bill that is known as the Wildfire Disaster Funding 
Act. This bill would allow for wildfires to be treated like 
other disasters and allow States to access emergency funding 
through FEMA. Do you think that this bill would help mitigate 
the harm and the damage caused by wildfires?
    Mr. Kruse. Senator Harris, absolutely. In fact, when the 
Wildfire Disaster Funding Act was introduced in the last 
Congress, it was the most bipartisan bill of the Congress. Over 
150 bipartisan, bicameral cosponsors and over 200 organizations 
from environmental communities, industry, counties, and 
recreation and wildlife groups all support that legislation. It 
is imperative that we pass it. We should be able to do it 
immediately.
    Senator Harris. I appreciate your expertise on this panel.
    Mr. Crapser, the Forest Service estimated last year that 
there are nearly 102 million dead trees in California forests. 
This is especially concerning right now because it contributes, 
obviously, to wildfires. Are you familiar with tree mortality 
issues?
    Mr. Crapser. Yes.
    Senator Harris. And California fire officials have told me 
that our State uses its own resources to remove dead trees on 
Federal lands like national forests, which should be, I 
believe, an obligation of the United States Forest Service. Are 
you aware of other States that have had to use their own 
resources to remove dead trees from Federal land?
    Mr. Crapser. Senator, in Wyoming, which we are a small 
State, we have about 4.5 million acres of mountain pine beetle 
impacted areas. In the last 6 years, the legislature has 
actually appropriated probably a total of about $7 million for 
us to use for bark beetle projects on private, State, and on 
Federal lands. So we have used State money on Federal land, and 
I know other States have done the same.
    Senator Harris. And then my final question, I know my time 
has expired, but would you agree that Federal funds managed by 
the U.S. Forest Service should be used to remove dead trees 
from Federal lands?
    Mr. Crapser. Senator, I think Federal funds with the 
managed Forest Service should be used for managing our Federal 
lands. There are some places where dead trees are probably 
appropriate to leave. They should be used for the effective 
management of our lands.
    Senator Harris. And would removal of dead trees be included 
in that?
    Mr. Crapser. Yes.
    Senator Harris. Thank you.
    Thank you. I have nothing else.
    Senator Barrasso. Thank you very much, Senator Harris.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Let me first ask 
unanimous consent to enter into the record a number of letters 
from concerned stakeholders, including Center for Justice and 
Democracy, Public Citizen, and the Wilderness Society.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you very much, Chairman.
    Gentlemen, what is the connection between carbon emissions, 
climate change, and the wildfire season?
    Mr. Kruse. Thank you.
    Senator Whitehouse. For the record, two Republican 
witnesses gestured to the Democratic witness to have him answer 
the question.
    Mr. Kruse. Happy to inherit the question, Senator 
Whitehouse. Thank you very much.
    Senator Whitehouse. You are not going to get off that easy; 
I will turn to you guys in a minute. And I know what the Boone 
and Crockett Club has said about this, too, Mr. Moretti.
    Mr. Kruse. There is clear and overwhelming consensus from 
both objective scientists inside and outside of the agency that 
climate change is absolutely having an effect on our forested 
landscapes. The wildfire season is 2 months longer than it used 
to be.
    Senator Whitehouse. One month earlier and 1 month later, 
right?
    Mr. Kruse. Correct. We are fighting fire from April to 
October right now.
    Senator Whitehouse. When had that happened before?
    Mr. Kruse. It has not; it has only been in the last 10 to 
15 years that we have seen this. This is a recent phenomenon. 
And as a result of that fuel build up, it is hotter, it is 
drier, and it is continuing to dry out and build up year after 
year after year. And as the temperature has continued to rise, 
when we do have those fire conflagration events, they are 
extreme. So there is a clear connection between carbon 
emissions, climate change, and what we are now experiencing 
with wildfire in our forests.
    Senator Whitehouse. Factor bugs into that equation, like 
the bark beetle. Does that have any effect on the 
susceptibility of forests to wildfire, and is that connected to 
climate change and carbon pollution?
    Mr. Kruse. Senator Whitehouse, bark beetles, again, are a 
natural part of forest ecosystems; however, as we do see the 
habitat changing for bark beetle, and extending the season by 
which they can migrate and mate, we are seeing increased 
infestations.
    Senator Whitehouse. Meaning they can survive in northern 
latitudes and northern altitudes they couldn't get to before 
because winters were killing them off, but milder winters 
because of climate change are allowing them to move in those 
directions?
    Mr. Kruse. That is correct, Senator.
    Senator Whitehouse. OK. And then how does that roll into 
wildfires?
    Mr. Kruse. As we continue to see increased die off of those 
forests, they are less resilient. When wildfires move through, 
we do have additional build up of fuels. And when fires do 
occur, they are burning more of that fuel and they are more 
extreme.
    Senator Whitehouse. A dead tree burns faster than a living 
one, ordinarily, correct?
    Mr. Kruse. It certainly can in this case.
    Senator Whitehouse. Mr. Moretti, agree or disagree?
    Mr. Moretti. Well, I believe that whether it is climate 
change or whether it is a lack of management, our forests are 
in need of--they are in bad shape. They are in bad health.
    Senator Whitehouse. That wasn't the question that you were 
asked, though.
    Mr. Moretti. But the question I am saying is is whether it 
is climate change or whether it is lack of management----
    Senator Whitehouse. And that is the question. What do you 
have to say about whether it is or isn't climate change? Does 
climate change have any role in this?
    Mr. Moretti. Well, we believe that we have gone through a 
much drier cycle in a lot of areas in the West. In this last 
winter, in western Wyoming, we had one of the hardest winters 
we ever had on record, so we believe that these forests are 
under a huge amount of stress, again, whether it is through 
climate change, lack of management, or whatever.
    Senator Whitehouse. Do you have another explanation for why 
the forest fire season or the wildfire season would have 
expanded a month out in either direction? Could that in any 
rational way be ascribed to management issues?
    Mr. Moretti. Well, I think it can be. I think that when we 
go through these periods of dry conditions and we have these 
forest fuels build up and these dead trees that we haven't been 
able to get out and harvest, that anything from manmade to 
natural cause can start a forest fire; and once it starts, you 
see how they are all-consuming. And as we have heard, there 
have been millions of acres consumed this year.
    Senator Whitehouse. So it sounds like what you are saying 
is that the expansion of the wildfire season could be helped by 
management practices that could reduce some of the fuel load 
and so forth.
    Mr. Moretti. We could reduce the fuel load.
    Senator Whitehouse. But it is not management practices that 
are actually expanding the wildfire season, is it?
    Mr. Moretti. Well, it all depends. It depends on what is 
causing those fires. If it is a manmade fire----
    Senator Whitehouse. Now we get back to my original 
question.
    Mr. Moretti. I know. But if it is a manmade fire, it is 
the----
    Senator Whitehouse. Well, let me start by this. Do you 
agree that the wildfire season has expanded by 2 months, as Mr. 
Kruse has said?
    Mr. Moretti. I will agree to that.
    Senator Whitehouse. OK. And do you have an explanation as 
to why that is happening on a consistent basis? It is not just 
a one-off, that it happened in 1 year.
    Mr. Moretti. No.
    Senator Whitehouse. It is persistent, and it is at trend 
now, is it not?
    Mr. Moretti. That is not my area of expertise.
    Senator Whitehouse. OK.
    Mr. Crapser, anything to add? You only have about a second.
    Mr. Crapser. Mr. Chairman and Senator, I think if we look 
at the wildfire season over the last 50 years, we have seen an 
increase in the fire season. If we look historically, in the 
early 1900s, we had a period of years with very long fire 
reasons.
    I am not an expert in carbon; I am not an expert in climate 
change. I do know that investing in forest management means 
healthier forests, less fires, less carbon emissions. I do know 
that.
    Senator Whitehouse. Thank you, Chairman.
    Thank you to the witnesses.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    For Mr. Crapser or Mr. Moretti, there was a question 
earlier about funding, if we had enough funding. Is funding 
alone enough, or do we need some regulatory changes as well?
    Mr. Crapser. Mr. Chairman, I believe it is hand in hand. 
Funding is a huge issue on the fire funding, I believe on 
overall support of our Federal lands, Federal land management. 
But I also think tools that can help industry, can help maybe 
alleviate some of the funding issues are also important, as the 
CE for salvage and fire, both insect disease and fire salvage 
would be.
    Senator Barrasso. It is interesting, this discussion of 
climate. I am just going to point out to my colleague that 
there was an article in The Economist this past weekend that 
just came out on Friday called ``Paleoclimatology: A Stormy 
Past.'' It has to do with hurricanes, and the subheadline is 
``Geological Traces of Ancient Hurricanes Show How Hard Climate 
Science Is.'' This is The Economist that is currently on the 
market. You can pick it up on a newsstand.
    And they talked about what is happening in Florida, and it 
says, ``Geological survey suggests that the hurricanes which 
struck Florida during a cool period 12,000 years ago were more 
powerful than those during a subsequent time of war.'' Just the 
difficulty of trying to get all the information together from a 
scientific standpoint.
    Well, I appreciate each of you being here today to testify. 
I thank you very much for your comments. There are other 
members of the Committee who may have written questions. I 
would ask that you respond promptly to those. The hearing 
record will be open for the next 2 weeks. Thank you again for 
being here and sharing your knowledge and your insight.
    The hearing is adjourned.
    [Whereupon, at 12:02 p.m. the Committee was adjourned.]
    [The text of S._, the Wildfire Prevention and Mitigation 
Act of 2017, follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
